Supreme Court, U.S.
FILED

IVER

DEC 0 4 2020
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

20-754

ALBERT VON WEINGARTEN

v.

LONNIE CHESTER
(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
IS Please enter my appearance as Counsel of Record for all respondents.
111 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

[1] I am a member of the Bar of the Supreme Court of the United States.
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bail ember.
Signature
Date.

December 3, 2020

(Type or print) Name

Duncan Frey Kilmartin
El Mr.

Firm

❑ Mrs.

[1] Miss

Rexford and Kilmartin, P.C.

Address

PO Box 10

City & State
Phone

❑ Ms.

Newport, Vermont

802-249-1800

Zip
Email

05855

rexkilvt@together.net

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Harold Stevens, Esq.; Thomas McCormick, Esq.

REXFORD & KILMARTIN
A PROFESSIONAL CORPORATION

PAUL R. REXFORD

ATTORNEYS AT LAW

DUNCAN FREY KILMARTIN

(1911-1991)

Mailing Address: P.O. BOX 10
Physical Address: 76 Widgeon Drive
NEWPORT, VERMONT 05855-2189
CELLAND TEXT 802-249-1800
TEL. 802-334-7386
802-334-6402
FAX
E-MAIL rexkilvt@together net

December 4, 2020
RE: Supreme Court Case No. 20-754
Albert Von Weingarten, Petitioner
v. Lonnie Chester, Respondent
Petition for Writ of Certiorari
Please find enclosed Respondent Chester's Waiver of filing a Response to the Petition for
Writ of Certiorari, docketed Tuesday, December 1, 2020.
Please note: my co-counsel of record, in the 2nd Circuit and the Vermont District Court,
below, was:
Thomas McCormick Esq.,
McCormick, Fitzpatrick, Kasper and Burchard,
40 George Street, Burlington, VT 05401.
Email: tem conc-fitz.com; phone 802-863-3494
The waiver form did not allow for his inclusion, and it would be helpful if he could
receive the same notices as I will receive. He is not a member of the bar of the U.S. Supreme
Court.
I am semi-retired, seventy-eight years old, and have been involved as counsel of record
for Lonnie Chester, Administrator of the Estate of Philomena Weingarten, and the Estate, in
"underlying" litigation to which this Petition is directly related, starting in the Probate Courts of
Vermont in 2004, over 16 years ago. While I believe I am in good health, I asked Attorney
McCormick to serve as co-counsel due to my advancing years, and as requested, it would be
helpful if he could be added to the notice list.
If per chance, the Court requests a response to the Petition, an attorney admitted to the
bar of the United States Supreme Court will file the Response Brief and related papers.
Please call me at 802-249-1800, with any questions, or further directions.
Sincer
1
°Ca- 44(
an Ft31
Cc: Harold Stevens, Esq.; homas McCormick: email and first class mail.

RECEIVED
DEC 1 5 2020
OFFICE OF'THE CLERK
SUPREME COURT, U.S.

